                                   U.S. Department of Justice

                                    KENNETH L. WAINSTEIN
                                    United States Attorney for the
                                    District of Columbia

                                   Judiciary Center
                                   555 Fourth St., NW
                                   Washington, D.C. 20530


                        PRESS RELEASE

FOR IMMEDIATE RELEASE               For Information Contact:
Wednesday, April 13, 2005           Public Affairs
                                    Channing Phillips (202) 514-6933
                                    http://www.usdoj.gov/usao/dc

Former George Washington University Professor pleads guilty
   to embezzling more than $900,000 from federally funded
                          programs

Washington, D.C.- United States Attorney Kenneth L. Wainstein,
Kenneth M. Mead, Inspector General of the United States
Department of Transportation, and Michael A. Mason, Assistant
Director in Charge of the Washington Field Office, Federal Bureau
of Investigation, announced that Nabih E. Bedewi, 41, of Reston,
Virginia, pleaded guilty today in U.S. District Court before the
Honorable Richard Roberts to theft concerning programs receiving
federal funds.   Sentencing is set for June 29, 2005.      The plea
agreement between Bedewi and the Government provides for a
sentencing range of 37 to 46 months in prison.
     Bedewi, who was a tenured professor in George Washington
University’s School of Engineering and Applied Science and
Director of the George Washington University National Crash
Analysis Center (NCAC), a research and resource center for
transportation safety studies on vehicles and highways,
headquartered in Ashburn, Virginia, which receives approximately
80 percent of its funding from the Federal Highway Administration
and National Highway Traffic Safety Administration, caused the
NCAC to pay approximately $991,909.31 in fraudulent transactions,
including charges from ITSC, EBI and NGM, entities that Bedewi
had an ownership interest in and/or controlled and for fraudulent
                                Page -2-

stipend and tuition payments.    As part of the scheme which lasted
from approximately April 2000 to July 2004, Bedewi caused to be
submitted and approved for payment invoices containing fictitious
labor, equipment and consulting expenses and made false
representations to establish unauthorized graduate student
stipends and a tuition scholarship for spouses of George
Washington University employees.      NCAC expenses are routinely
subject to reimbursement by   the Federal Highway Administration
and National Highway Traffic Safety Administration as part of the
Federal funding of NCAC’s activities.      Many of Bedewi’s
fraudulent transactions were subject to reimbursement, resulting
in losses to the Federal government and George Washington
University/NCAC totaling approximately $991,909.31.
     Department of Transportation Inspector General Kenneth M.
Mead stated that stewardship of taxpayer dollars is a top
Departmental priority: "Because the demand for federal highway
safety funds is greater than available resources, we need to
ensure that every dollar is being spent well and as intended.       We
will take swift action against anyone who seeks to defraud our
transportation programs by unlawfully diverting public funds for
private gain."   Mr. Mead acknowledged the University's role in
voluntarily disclosing this diversion and agreeing to work with
FHWA to enhance grant oversight.
     In announcing today’s guilty plea, United States Attorney
Wainstein, Inspector General Mead and Assistant Director in
Charge Mason commended Special Agents Michael Pugliese and Kevin
Durkin of the Department of Transportation Inspector General’s
Office, Special Agents Kimberly Alaniz and Perry Goerish of the
FBI, legal assistant Teesha Tobias and Assistant United States
Attorneys John Griffith and Kimberley Knowles.
                                 ###
